CERTIFICATE OF WORD COUNT
NO. TBD
Daniel Flores,
Petitioner(s),
v.
Christian Pfeiffer, Warden,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the DANIEL FLORES PETITION
WRIT OF CERTIORARI contains 8447 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
FOR

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 11, 2020

SCP Tracking: Ahrony-401 Wilshire Blvd, 12th Floor-Cover White

